                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL
                                          Washington D.C. 20250




                                                                                      March 24, 1999


REPORT TO THE SECRETARY ON CIVIL RIGHTS ISSUES - PHASE VI

FROM:          Roger C. Viadero
               Inspector General

SUBJECT:       Evaluation of the Status of USDA Agreements Entered Into To Resolve Complaints
               Alleging Program Discrimination


On September 4, 1998, you asked the Office of Inspector General (OIG) to audit the settlements of
complaints of discrimination in the administration of the Department's programs concluded since
January 1, 1997. You asked us specifically to determine whether these settlements have been
fulfilled expeditiously and completely, and whether all forms of compensatory damages and program
relief have been implemented. You also asked us to include recommendations to remedy any
deficiencies.

This represents our sixth evaluation of the Department's efforts to resolve its program complaints.
We reviewed 101 settlement and conciliation agreements negotiated by the Office of Civil Rights
(CR) and other Department agencies since January 1, 1994. This included 17 settlement agreements
and 84 conciliation agreements. Settlement agreements can contain terms for compensatory
damages, while conciliation agreements typically contain terms for program relief only.

The Department has fully implemented 8 of the 17 settlement agreements and has implemented most
of the terms of the remaining 9. It has paid all compensatory damages settled by CR in a timely
manner. It has also implemented most of the terms of the conciliation agreements calling for
program relief. Most agreements that have not been implemented contain terms (e.g., calling for
priority consideration on future loans) that do not expire for up to 6 years.

In only one case did the Department not fulfill the terms of its agreement. The agreement required
the Farm Service Agency (FSA) to give the complainant priority selection of Government inventory
property, but FSA did not notify the complainant whether or not property was available. FSA did
not believe that this program participant was eligible for priority consideration since the participant
was not considered a Socially Disadvantaged Applicant. We are recommending the Department
implement the agreement, but because the complainant is not a member of any socially
disadvantaged group, we are recommending the Department first obtain a legal opinion concerning
REPORT TO THE SECRETARY ON CIVIL RIGHTS ISSUES - PHASE VI                                          2


the complainant's eligibility for priority selection of property. We are also recommending that CR
track all agreements and report to you twice a year the terms that have not been implemented.

Even though there was a high probability that discrimination did indeed occur in the 17 cases that
led to settlement, no disciplinary action has been taken against any discriminating officials. CR has
provided agencies with no formal guidance on how to proceed in these cases. We have consistently
urged CR to provide guidance on all stages of the complaints resolution process, and we are
reemphasizing this need.

Several agreements contained terms that were inappropriately or vaguely worded, or provided
monetary damages that may not be allowed by law. We are recommending that CR assemble and
chair a team of the Office of the General Counsel (OGC) attorneys and program officials that would
meet prior to each agreement negotiation to analyze the proposed terms of the agreement for legal
sufficiency.
Executive Summary

Purpose                             We performed this evaluation to determine the status of
                                    agreements entered into by the U.S. Department of
                                    Agriculture (USDA) in its efforts to resolve complaints
              made by program participants who alleged civil rights violations by the
              Department in its administration of Federal programs. The evaluation was
              requested by the Secretary during our Phase V review of operations of the Office
              of Civil Rights (CR), the agency assigned to investigate and resolve civil rights
              complaints. Our Phase V review determined that CR did not track settlement
              agreements after they were executed and did not know how many agreements the
              Department had entered into. Consequently, the Secretary asked us to determine
              whether the agreements had been fulfilled expeditiously and whether all forms
              of compensatory damages and program relief had been implemented. We
              expanded our evaluation coverage to include conciliation agreements, because
              these agreements are similar to settlement agreements, and are also based on a
              complaint of discrimination.

              For this evaluation, we reviewed 101 agreements, 17 of which were settlement
              agreements and 84 of which were conciliation agreements. A conciliation
              agreement is typically used to resolve a complaint soon after it is lodged, while
              a settlement agreement is used after an investigation and adjudication has arrived
              at a finding of discrimination. A conciliation agreement typically offers the
              complainant only program relief, while a settlement agreement may include
              compensatory damages as well as program relief.

              Because a settlement agreement is reached after a high probability of
              discrimination has been found, the case should be referred for disciplinary action.
              We included in our evaluation a review of CR activities to determine if USDA
              agencies took disciplinary actions against the discriminating official(s).


Results in Brief                   Even though settlement and conciliation agreements
                                   entered into by the Department were generally being
                                   implemented in a timely manner, CR remained unaware of
              the number and status of all agreements. CR was not tracking the
              implementation of the agreements, and it had offered no formal guidance on
              cases that had been referred for disciplinary action. We found that no
              disciplinary actions had been taken in any of the cases involving proven or
              probable discrimination. We also found that in one case, the Farm Service
              Agency (FSA) did not agree to the propriety of one term of an agreement that
              CR had entered into with a complainant and consequently did not fulfill that
              term. In this case, FSA maintained that it was precluded by statute from
              offering the program relief stipulated in the agreement term. FSA had not

                                                       i
informed CR of its decision, and it had not sought advice from the Department’s
attorneys. We are recommending that the Department seek a legal opinion about
the propriety of the agreement term and implement the term, if appropriate.

In order to determine the total number of settlement and conciliation agreements
entered into during our scope period of 1994 through October 1998, we sent
letters to all USDA agencies. We requested each agency to provide us copies of
the agreements entered into during our scope period, and notify us of any
disciplinary actions recommended or taken against agency officials involved in
discriminatory acts against USDA program applicants or participants during this
same timeframe. Based on responses to our inquiry, we determined that there
were 17 settlement and 84 conciliation agreements entered into during our scope
period.

The 17 settlement agreements were reached either after an investigation resulted
in a finding of discrimination or after the CR Director concluded there was a
high probability that discrimination had occurred. However, no disciplinary
action has been taken against any discriminating officials in reference to these
17 settlement agreements. CR has not provided either FSA or the Department’s
Office of Human Resources Management with individual names or other
documentation needed to initiate disciplinary action. CR has also not issued any
formal guidance on how agencies should proceed with disciplinary action, and
it has not monitored any of the 17 settlement cases to determine if such actions
have been carried out.

One agency official believed that his agency could not proceed with disciplinary
action without absolute proof of employee wrongdoing. The Department's
Office of the General Counsel (OGC) has stated that the evidence used to arrive
at a finding of discrimination is sufficient grounds to proceed with disciplinary
action, but in more recent communications, OGC attorneys have suggested that
a finding of discrimination should itself initiate a process of identifying the
sufficiency of evidence. We concluded that CR should define in its
departmental regulations when such a process is warranted.

CR has made an effort to apprise itself of settlement agreements, but it relies on
data received from FSA, the only agency with settlement agreements to date, to
track their status. Although agencies are encouraged to resolve cases through the
more efficient and less costly process of conciliation, CR has not formalized this
policy.

We also found that the Department was entering into agreements that contained
terms that were inappropriately worded, or provided monetary damages that may
not be allowed by law. Many agreements that offered debt forgiveness and
priority consideration for future loans may have waived the law in effect at the


                                       ii
                             time that forbid individuals who received prior debt forgiveness from getting
                             future USDA loans. OGC attorneys noted that USDA may override the law only
                             in cases in which the debt was forgiven as part of a settlement (i.e., the debt was
                             a proven result of discrimination), not if it had been forgiven through the normal
                             implementation of the law. According to the attorneys, stipulating such a waiver
                             of the law in the agreement might void the entire agreement. We believe that
                             OGC civil rights attorneys should consult with OGC program attorneys during
                             the settlement agreement review process, in order to avoid terms that could
                             result in further litigation.

                             In spite of CR’s inability to account for all complaint agreements, the
                             Department has generally implemented those agreements. It has implemented
                             all of the terms of 8 settlement agreements, most of the terms of the remaining
                             9 settlement agreements, and most of the terms of the conciliation agreements.
                             The Department has paid all compensatory damages settled by CR. The 101
                             agreements we reviewed, both conciliation and settlement, contained 293 terms.
                             The status of those terms is summarized in the following table.

                               STATUS OF 293 TERMS OF AGREEMENT IN 101 AGREEMENTS REVIEWED

                                                                           Type of Agreements and Number of Terms

                                                                CONCILIATION                                SETTLEMENT
                                                                     Program Relief                   Compensatory             Program Relief
                                  Status of Terms                                                       Damages

                               Implemented                                  57                               9                        68

                               Outstanding                                   1                                                        50

                               Failed to Implement                                                                                     1

                               Improperly Closed                                                                                       1

                               Not Monitored                                                                                           9

                               Not in OIG sample                            97

                               Total                                       1551                              9                       129

                             Although many agreement terms covering programmatic relief have not yet been
                             fulfilled, this situation is largely a result of the scope of the agreements. These
                             agreements contain terms (e.g., calling for priority consideration on future loans
                             or for providing technical assistance) which do not expire for up to six years
                             from the date the agreements were signed. In some cases, these terms will not


    1
     Of the 155 terms we judgmentally selected 58 for review. Our selection was based on trying to review agreements from a variety of States.
The 58 terms reviewed were from 30 different conciliation agreements.


                                                                                     iii
           be fully implemented until after the year 2002. We found no evidence that
           Department agencies intentionally delayed the implementation of the
           agreements.

           Before our audit began, we received a letter from the Congressional Black
           Caucus that raised several issues concerning settlement agreements and the
           Department of Justice’s (DOJ) involvement in them. The information we
           provide in the General Comments section of this report responds to these issues.


Key Recommendations               We recommended that for negotiated settlements, CR
                                  assemble and chair a team of OGC civil rights attorneys
                                  and cognizant agency program officials that will meet prior
           to any agreement negotiation to analyze the proposed terms of the agreement for
           legal sufficiency prior to the presentation of the agreement to the claimant. We
           also recommended that CR, in coordination with OGC and the Office of Human
           Resources Management, provide procedural guidance on disciplinary action and
           formalize its policy of encouraging agencies to reach some conciliation with
           complainants early in the complaints process. CR and the agencies also need to
           track all conciliation and settlement agreements and report all outstanding
           agreement terms to the Secretary semiannually.

           Finally, we recommended that FSA implement the one agreement term we found
           outstanding.


Agency Response                 We discussed the contents of this report with the Director
                                of CR, the General Counsel, and the Associate General
                                Counsel, Civil Rights Division. We have incorporated their
           comments in the report. A response to the recommendations in this report is due
           from the Director of CR within 60 days from the date of this report, and we will
           work with the Director to implement the recommendations.




                                                  iv
TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

         SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

         METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Conclusions and Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
1.       THE STATUS OF SETTLEMENT AND
         CONCILIATION AGREEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

         Agreements Are Generally Being Implemented in a Timely Manner . . . . . . . . . 7

2.       DEPARTMENT GUIDANCE AND THE SETTLEMENT PROCESS . . . . . . . . 10

         Accountability Needed in the Review and Monitoring
         of Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
             Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         Accountability Needed in Cases of Disciplinary Action . . . . . . . . . . . . . . . . . . 13
            Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

         Agencies Should Be Encouraged To Conciliate Agreements . . . . . . . . . . . . . 17
           Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19




                                                             v
TABLE OF CONTENTS



3.     AGREEMENT ON TERMS IN THE SETTLEMENT AGREEMENT . . . . . . . . . 20

       Agreement Terms Should Be Agreed To Within USDA
       Prior to Negotiations With the Claimants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
          Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


       GENERAL COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25




EXHIBIT A - Complaints with Settlement Agreements . . . . . . . . . . . . . . . . . . . . . 28

EXHIBIT B - Results of Cases Sent to DOJ for Review . . . . . . . . . . . . . . . . . . . . . 29

EXHIBIT C - DOJ-Negotiated Settlement Agreements . . . . . . . . . . . . . . . . . . . . . . 30




                                                      vi
Introduction

Background                                          A settlement agreement is one possible outcome of a
                                                    program discrimination complaint made against an agency
                                                    of the U.S. Department of Agriculture (USDA) under Title
                             VI of the Civil Rights Act of 1964 and the Equal Credit Opportunity Act
                             (ECOA) of 1974.2 These Acts provide that no citizen shall be subjected to
                             discrimination under any Government program or activity because of race, color,
                             national origin, or other such characteristics. The Department seeks to resolve
                             program discrimination complaints by urging the agency against which the
                             complaint was filed to attempt conciliation with the complainant. However, a
                             maximum of 24 days is permitted for conciliation.

                             The nature of a conciliation agreement is to make good on any program losses
                             suffered by the complainant as a result of improper adverse USDA actions.
                             Depending on the merits of the complaint, programmatic relief at this stage can
                             amount simply to a rereview by county officials of the claimant's loan
                             application, or it can include payment of program benefits, issuance of a loan,
                             or provisions of loan servicing. Conciliation agreements also establish that
                             USDA does not acknowledge any wrongdoing or liability for discrimination or
                             for the complainant's loss.

                             Prior to the establishment of the Office of Civil Rights (CR), the agencies and
                             not the Department resolved a number of the cases. The Department civil rights
                             staff, who had responsibility for assuring that complainants received due process
                             before the cases were closed, neither reviewed the terms of the agreements nor
                             assured that they were implemented.

                             A Secretary’s Memorandum, dated May 16, 1997, established CR and made the
                             CR Director responsible for supervising the performance of all civil rights
                             functions assigned to the Assistant Secretary for Administration. These
                             functions include investigating, adjudicating, and resolving all complaints of
                             program discrimination, and allowing compensatory damages to be awarded for
                             cases involving discrimination in programs subject to the ECOA.

                             If conciliation at the agency level is unsuccessful, CR then becomes involved
                             and may complete an investigation of the case. The Department must then
                             respond to the facts gathered and acknowledge whatever blame is apportioned
                             to it. For cases that have resulted in findings of discrimination, or where the CR


    2
      Other laws and regulations could apply. These may include the Fair Housing Act of 1968, the Rehabilitation Act of 1973, and 7 CFR
Part 15, dated June 11, 1982.




USDA/OIG/A 60801-2-Hq                                                                                                                     1
              Director determined there was a high probability that discrimination occurred,
              the Department may reach an agreement with the complainant, now known as
              a "settlement agreement," and also recommend the agency take action to correct
              the cause of discrimination. Corrective actions could include requiring an
              employee to take civil rights training or administering disciplinary action.
              Currently, CR may recommend that disciplinary action be taken following a
              settlement, but it is the agency's responsibility to determine the type of action to
              be taken and to administer the action.

              The ECOA also prohibits discrimination in Government programs, but it extends
              the scope of relief by allowing complainants in credit cases to sue for
              compensatory damages. Complainants whose cases do not involve loan
              programs or are settled prior to an investigation are typically entitled to
              programmatic relief. However, complainants whose cases involve loan programs
              may be entitled to compensatory damages. These damages are the losses that
              were caused by the discrimination over and above any program benefits that the
              complainant was denied. The complainant must submit documentary evidence
              of this loss. CR reviews the evidence and either issues a decision on damages
              or negotiates with the complainant to arrive at a settlement agreement. The
              agency against which the complaint was brought is responsible for implementing
              the agreement.

              Because of pending litigation, the Department of Justice (DOJ) also reviewed
              some settlement agreements in which compensatory damages were awarded. If
              DOJ determined that the settlement agreements reached between CR and the
              complainants were unreasonable based on the evidence of loss or other facts
              surrounding the case, it voided the settlement agreement as written. DOJ is
              required to approve any settlement for plaintiffs involved in litigation.




USDA/OIG/A 60801-2-Hq                                                                           2
                            Figure 1: The Process of Arriving at Settlement Agreements in Program
                                      Discrimination Cases3




    3
      As observed by OIG and based on discussions with CR and OGC officials. As noted in the General Comments section of this report,
certain settlement agreements were also reviewed by the Department of Justice after the negotiated settlement phase.




USDA/OIG/A 60801-2-Hq                                                                                                                   3
              In our Phase V report, dated September 30, 1998, we concluded that CR was
              uninformed about all agreements and did not know whether the terms were
              implemented. CR did not track the agreements after they were executed, and it
              did not require agencies to implement corrective actions prior to closing the
              cases. Complainant casefiles did not include evidence to show that agreements
              were implemented or that required corrective actions were taken. Without a
              system to monitor implementation of the agreements, there was no assurance
              that complainants were receiving timely redress.

Objectives                           This evaluation was performed in response to a request
                                     from the Secretary regarding the status of settlement
                                     agreements. The Secretary’s request came during our
              Phase V review, which disclosed that the Department did not know how many
              settlement agreements had been executed and whether those agreements had
              been implemented. The objectives of this evaluation were to determine (a) if the
              settlements, including all forms of compensatory damages and program relief,
              had been implemented expeditiously and completely, and (b) if the Office of
              Civil Rights and its predecessor followed up to ensure that USDA agencies took
              recommended disciplinary actions against the discriminating official(s).

              Before our audit work began, OIG received a letter, dated August 31, 1998, from
              the Congressional Black Caucus raising several other issues regarding settlement
              agreements. Specifically, the Caucus asked us to determine (a) if CR
              investigators are being coerced and intimidated by USDA's Office of the General
              Counsel (OGC) and the Department of Justice (DOJ) to reverse findings of
              discrimination and to reduce proposed settlement awards in certain black farmer
              discrimination cases; (b) if any investigator has been asked by anyone to reverse
              a finding of discrimination or modify, reduce, or eliminate a proposed award; (c)
              the number of proposed black farmer settlements that have been reviewed by
              DOJ since December 31, 1996; (d) the number of such settlements where DOJ
              requested USDA to reduce, modify, or eliminate proposed settlements or change
              any finding of discrimination; and (e) the average settlement amounts of such
              cases with DOJ review and the average settlement amounts of such cases
              without DOJ review.

              Our responses to the five specific issues raised by the Congressional Black
              Caucus are included in the General Comments section of this report.

Scope                              The Secretary requested that we review settlements of
                                   discrimination complaints in the Department's programs
                                   concluded since January 1, 1997. We expanded our scope,
              however, to include both settlement and conciliation agreements concluded since
              January 1, 1994. The expanded scope allowed us to review a larger sample of



USDA/OIG/A 60801-2-Hq                                                                        4
              agreements, and we concluded it was appropriate to include conciliation
              agreements since they are also based on discrimination complaints and are
              similar to settlement agreements. Also, in order to respond to the request made
              by the Congressional Black Caucus, we broadened our review of OGC and
              DOJ's involvement in the settlement process. We reviewed 101 agreements, 17
              settlements and 84 conciliations.

              All 17 settlement agreements resulted from complaints brought against the Farm
              Service Agency (FSA). For these 17 settlement agreements, USDA paid nearly
              $2.7 million in compensatory damages and forgave over $1.7 million of debt.
              (See exhibit A.) These 17 settlement agreements contained 138 terms. We
              verified the implementation of all 138 terms.

              Of the 84 conciliation agreements, 64 resulted from complaints brought against
              Rural Development; 16 resulted from complaints brought against FSA; 3
              resulted from complaints brought against the Forest Service; and 1 resulted from
              a complaint brought against the Natural Resources Conservation Service. These
              84 conciliation agreements contained 155 terms. We judgementally selected and
              verified the implementation of 58 terms.

              We also identified four settlement agreements that were negotiated through DOJ.
              These four settlement agreements resulted from four FSA customers who filed
              lawsuits against the Secretary, and as such, they fell under DOJ’s jurisdiction.
              These four included $817,000 in compensatory damages and $789,028 in debt
              forgiveness. (See exhibit C.) We did not include these 4 in our total of 101
              agreements since they fell under DOJ’s jurisdiction. However, CR is aware of
              these agreements, and FSA is tracking the implementation of their terms.

              Audit fieldwork was conducted between October 13, 1998, and December 18,
              1998.

              This evaluation was conducted in accordance with the quality standards for
              inspections issued by the President's Council on Integrity and Efficiency.

Methodology                        To accomplish our objectives, we:


              C      sent a letter to all Departmental agencies, requesting them to provide us
                     information on all of their settlement agreements and on any agreements
                     similar to settlement agreements that were entered into during our scope
                     period.




USDA/OIG/A 60801-2-Hq                                                                       5
              C    conducted interviews with cognizant CR officials and contacted officials
                   of FSA, Forest Service, Rural Development, the Department's Office of
                   the General Counsel, and the U.S. Department of Housing and Urban
                   Development.

              C    reviewed the laws and Department regulations applicable to settlement
                   and conciliation agreements reached since January 1, 1994.

              C    reviewed the organizational responsibilities, tracking systems, and
                   reconciliation processes of the CR, FSA, and Rural Development.

              C    reviewed the status of USDA settlement and conciliation agreements by
                   conducting interviews, making contacts with agency officials, or
                   reviewing documentation.

              C    reviewed documentation pertinent to the financial system used for
                   payments of cash settlements.

              C    collected data on OGC and DOJ’s timeframes for reviewing civil rights
                   cases referred by USDA.




USDA/OIG/A 60801-2-Hq                                                                    6
Chapter 1:      The Status of Settlement and Conciliation Agreements

Agreements Are Generally Being Implemented in a Timely
Manner


Conclusion 1                        In spite of CR’s inability to account for all complaint
                                    agreements and their status, the Department has generally
                                    implemented the terms of those agreements. It has fully
               implemented 8 of its 17 settlement agreements, most of the terms of the
               remaining 9 settlement agreements, and most of the terms of the 84 conciliation
               agreements. The Department has paid all compensatory damages settled by CR
               and agreed to by DOJ. Although many agreement terms covering programmatic
               relief have not yet been fulfilled, this situation is largely a result of the scope of
               the agreements. These agreements contain terms which do not expire for up to
               6 years from the date the agreements were signed. We found no evidence that
               Department agencies intentionally delayed the implementation of the
               agreements. However, we did find that CR had agreed to one term in one
               agreement concerning FSA program relief that FSA, citing statutory
               requirements, did not believe it could fulfill. This case concerned a complainant
               who was not a Socially Disadvantaged Applicant and who therefore may not
               have been eligible for the program relief granted in the agreement term.

               During our Phase V review, we identified differences between the number of
               settlement agreements provided to us by the CR Director and the number found
               during our review of the casefiles and other documentation. We also noted that
               CR’s data base included nearly four times the number of cases closed by
               settlement that had been provided to us. To determine the total number of
               agreements in the Department, we sent a letter to all agency heads requesting
               all settlement and conciliation agreements entered into from January 1, 1994,
               through October 1998. From what was sent to us and from what we additionally
               found during the course of our review, we identified 101 agreements entered into
               by USDA, 17 settlement agreements and 84 conciliation agreements. All 17
               settlement agreements involved complaints against FSA.

               For the 17 settlement agreements, the FSA National office maintains separate
               casefiles for each agreement, monitors the implementation of the terms, and
               produces a monthly report on its progress. To determine the status of the terms,
               we reviewed documentation located in these casefiles. We also verified the
               payment of the compensatory damages through discussions with officials in
               FSA’s Finance office in St. Louis, Missouri and the review of various payment
               documents.


USDA/OIG/A 60801-2-Hq                                                                              7
                            Compensatory Damages. The Department awarded compensatory damages in
                            9 of its 17 settlement agreements. We reviewed all nine of these agreements.
                            (See exhibit A.) The amounts awarded in the agreements ranged from $114,000
                            to $495,000.4 All damage awards had been paid within the timeframes
                            stipulated in the agreements. Three of the awards stipulated a 60-day timeframe,
                            five stipulated a 30-day timeframe, and one stipulated a 15-day timeframe. For
                            the agreement with the 15-day timeframe, $474,725 in damages was awarded
                            and paid within 2 days, the shortest response time. For one of the agreements
                            with a 60-day timeframe, $495,000 in damages was awarded and paid within 56
                            days, the longest response time.

                            Program Relief. All of the 17 settlement agreements contained some form of
                            program relief. (See exhibit A.) Altogether, there were 129 terms of program
                            relief in these 17 settlements, and all terms related to FSA programs.
                            (Complaints against all other USDA agencies were resolved through conciliation
                            and did not result in settlement agreements). Of these 129 terms, 68 have been
                            implemented, and 50 are still outstanding because of implementation timeframes
                            that extend for up to 6 years.

                            Of the remaining 11 terms, 9 called for CR to monitor implementation of the
                            agreements, but it did not do so (see Conclusion 2). One agreement term called
                            for CR to leave a case open which CR nevertheless closed. The last agreement
                            term required FSA to allow the complainant to receive priority selection of
                            inventory property when it became available. In this case, FSA did not notify
                            the complainant about whether or not inventory property was available. A senior
                            loan officer with FSA stated that since this individual was not a Socially
                            Disadvantaged Applicant, priority consideration for inventory property could not
                            be given.

                            In this last case, the complainant was a white male who was disabled. CR
                            agreed with the complainant that FSA improperly based its denial of a loan
                            solely on the individual’s disability and offered to settle with the complainant by
                            granting him priority consideration for inventory property. However, FSA did
                            not believe it was authorized to fulfill this term of the agreement. An FSA loan
                            officer stated that only Socially Disadvantaged Applicants were eligible for
                            priority consideration for inventory property and that the statute governing
                            Socially Disadvantaged Applicants did not apply to white males. Consequently,
                            FSA did not notify the complainant of the availability of inventory property.
                            However, FSA also did not notify CR that it believed it could not fulfill the
                            agreement term, and it did not seek the advice of OGC attorneys. We are


    4
    One of the nine agreements included compensatory damages paid in part by Rural Development; however, the complaint was filed against
FSA. We verified the payment of the compensatory damages with Rural Development fiscal personnel.




USDA/OIG/A 60801-2-Hq                                                                                                                      8
              recommending that the Department seek a legal opinion about the propriety of
              the agreement term. (See Conclusion 5.)

              The 50 terms that are still outstanding include 10 terms that have expiration
              dates that have not expired, and 36 terms that cannot be implemented until the
              complainant applies for a new loan. The cases of prolonged expiration dates
              usually call for the complainant to receive priority consideration on future loans
              or for providing technical assistance over the next 4 or 5 years. The remaining
              four outstanding terms are for the payment of attorney fees and the notification
              of credit bureaus.

              Of the 68 terms that have been satisfied, 50 were implemented when
              5 complainants received their disaster payments. Of the remaining 18 satisfied
              terms, 9 called for debt forgiveness; 4 called for a property conveyance or
              release of liens; and 2 required the issuance of new loans. The other 3 terms
              were for the payment of attorney fees, the notification of credit bureaus, and the
              endorsement of a certified check.

              Two of the agreements that contained terms for debt forgiveness were not
              implemented within the timeframes stipulated in the agreements. These two
              agreements required debt forgiveness to be completed within 15 days of the
              signing of the agreements. The agreements also required DOJ approval. DOJ
              approval did not occur until 26 and 28 days respectively after the agreements
              were signed. The agreements, as written, did not allow time for DOJ approval
              before the deadline for these terms was reached. Debt forgiveness for both of
              these agreements was completed, one in 62 days and the other in 158 days.

              In addition to the 17 settlement agreements, we reviewed 84 conciliation
              agreements, 64 entered into by Rural Development, 16 entered into by FSA, and
              the remaining 4 entered into by the Forest Service and NRCS. These 84
              agreements contained 155 terms. We verified the status of 58 terms and found
              only 1 to be outstanding. In this case, the term cannot be implemented until the
              complainant applies for a new loan, and to date he has not done so.




USDA/OIG/A 60801-2-Hq                                                                         9
Chapter 2:     Department Guidance and the Settlement Process

Lack of Guidance from the Office of Civil Rights Has Resulted
in Uncertainty Over the Settlement Process and Little or No
Disciplinary Action Taken in Cases of Discriminatory Behavior

              No disciplinary actions have been taken in reference to the 17 settlement
              agreements entered into by the Department, and only 2 letters of reprimand have
              been given in reference to conciliation agreements that have been negotiated
              between claimants and the agencies.

              Our review of settlement and conciliation agreements disclosed that CR has not
              issued any formal departmental guidance to ensure that agencies process
              agreements consistently. There is no guidance to provide for centralized
              monitoring of agreements, and there are no procedures to implement disciplinary
              action. In the absence of guidance, the Department has no accurate accounting
              of the agreements executed, and there has been no unified effort to discipline
              officials whom CR has identified as the source of the discrimination.

              Lack of guidance has been a longstanding problem with CR. As we stated in our
              Phase V report, dated September 30, 1998, CR has been slow to finalize its
              procedures and eliminate deficiencies. We found that its draft regulations were
              incomplete and did not properly assign responsibilities to the USDA agencies
              and OGC in the complaint process. CR subsequently issued a revised draft of
              7 CFR Part 15d for comments, and it is currently assessing those comments. It
              plans to begin working with OGC to prepare a final version of the regulation.

              During this evaluation, CR also provided us with the revised draft versions of
              DR 4330-1 and DR 4330-2. These documents did not include all of the changes
              we recommended in our Phase V report. Nevertheless, CR forwarded the drafts
              to the Secretary and is awaiting his approval. These revised Department
              regulations do not contain any specific reference to disciplinary action.

              The CR Director informed us that the complaints procedure manual is being
              revised and will include more specific instructions not incorporated into the
              Department regulations.




USDA/OIG/A 60801-2-Hq                                                                     10
Conclusion 2                        CR has not issued procedures to establish accountability for
Accountability Needed in the        the implementation of settlement and conciliation
Review and Monitoring of            agreements arrived at by either CR or the USDA agencies.
Agreements                          Agencies are not required to track their agreements (both
                                    settlement and conciliation), and CR itself neither reviews
                                    conciliation agreements when they are entered into, nor
                                    takes an interest in monitoring the implementation of the
              terms included in those agreements. As a result, neither CR nor the agencies are
              aware of the total number of agreements entered into by the Department nor the
              status of those agreements.

              Settlement Agreements

              As we reported in our September 30, 1998, Phase V report on CR operations, the
              total universe of settlements is not known to CR management. At the time of
              the Phase V review, CR provided us with 17 settlement cases. These cases were
              not the only settlements in existence, and some had been incorrectly coded in
              CR’s tracking system as settlements. (CR's data base itself designated nearly
              four times this number of cases as settlements.) CR's Accountability Division
              had responsibility to track settlement agreements but did not do so because the
              division lacked the resources. Our Phase V report recommended that CR
              establish a system to monitor the implementation of these settlement agreements,
              and CR responded that it had developed such a system. However, during our
              current review, we found that this system consisted only of a few new fields in
              the data base and that these fields had not been used.

              In August 1998, the CR Director appointed a special assistant to track the
              implementation of agreements and ensure compliance with their terms and
              conditions.

              The special assistant prepared "Procedures for Monitoring the Implementation
              of Settlement Agreements in Program Complaints," which remains in draft form
              while awaiting review by the CR Director and CR's Program Investigations
              Division. According to the procedures, the special assistant should be issuing
              biweekly inquiries to the agency head or designee requesting updated
              information and documentation of implementation activities and keeping the CR
              Director informed of the agency's progress or failure to implement the terms of
              the settlements.

              In October 1998, in response to our Phase V review, FSA established a system
              to track its settlement agreements. FSA provided CR data from its system. The
              special assistant stated that she had knowledge of only the FSA settlement
              agreements provided to her by the Director of CR. The special assistant had not



USDA/OIG/A 60801-2-Hq                                                                        11
              made inquiries to other USDA agencies about whether or not they had any civil
              rights agreements, either settlement or conciliation. (However, CR’s own data
              base as of November 16, 1998, shows 65 cases coded as settlements, 35 of
              which were against agencies other than FSA.)

              Conciliation Agreements

              A former departmental civil rights official stated that prior to the establishment
              of CR, conciliation agreements were reached between the agency and the
              complainant. The agreement was later forwarded to the Department-level staff
              for final approval and closure, but the Department-level staff neither reviewed
              the terms of the agreements nor ensured they were implemented. The staff
              would follow up if complainants contended that the terms of their agreements
              had not been implemented, but this rarely happened.

              The Secretary's May 16, 1997, Memorandum that established CR made it
              responsible “...for investigation, adjudication, and resolution of complaints of
              discrimination arising out of ... conducted or assisted programs....” We believe
              that this gave CR responsibility for ensuring that settlement and conciliation
              agreements, past and future, were implemented.

              Although CR has exercised its responsibility to negotiate settlement agreements,
              it has not exerted its right to review and approve the conciliation agreements
              reached between the agencies and the complainants. CR also has not determined
              if the agencies established adequate systems for monitoring and tracking these
              conciliation agreements to ensure that they have been completely and
              expeditiously implemented.

              In the absence of any required accountability for the implementation of
              conciliation agreements, not all agencies could readily determine the status of
              their agreements. During our evaluation, we found that Rural Development did
              not have a central tracking system and did not know the number of conciliation
              agreements it had entered into since January 1, 1994. Headquarters personnel
              relied on the State Civil Rights Coordinators to forward all such agreements.
              However, when we reviewed the civil rights staff’s general correspondence files,
              we identified six additional agreements that the coordinators had not provided
              us.

              Rural Development officials were also unable to tell us the status of the
              implementation of the agreements. According to a Rural Development official,
              each State Civil Rights Coordinator is supposed to maintain documentation that
              the terms of each agreement are properly implemented. We contacted 14 State
              coordinators to obtain documentation on 18 conciliation agreements. In some



USDA/OIG/A 60801-2-Hq                                                                       12
               instances, State Civil Rights Coordinators were unable to provide
               documentation from their files that agreement terms were implemented, and had
               to contact the county offices against which the complaints were filed.

               Rural Development is currently developing a system to track conciliation
               agreements and ensure that their terms are met. The system should be on-line
               by February 1999.

               The CR Director has emphasized that she does not plan to review conciliation
               agreements reached at the agency level nor does she plan to monitor the
               implementation of these agreements. Based on the Secretary’s memorandum
               that constituted CR as the Department agency responsible for resolving all civil
               rights issues, we concluded that CR should review and monitor the
               implementation of both settlement and conciliation agreements. In addition, we
               believe the CR Director should keep the Secretary informed of the
               implementation of these agreements in a semiannual report.

Recommendation 1a

               Require the CR Director to immediately implement procedures to review
               conciliation agreements reached at the agency level, and to monitor and track all
               settlement and conciliation agreements applicable to all USDA agencies, and
               ensure their complete and expeditious implementation.

Recommendation 1b

               Direct CR to provide guidance to agencies regarding the establishment of
               appropriate systems for monitoring and tracking conciliation agreements.

Recommendation 1c

               Direct CR to report to the Secretary on a semiannual basis those terms which
               have not yet been implemented.


Conclusion 3                         Of the cases we reviewed with findings of discrimination,
Accountability Needed in             CR referred only one for disciplinary action, and to date no
Cases of Disciplinary Action         action has been taken in that case. Disciplinary actions are
                                     rare because there are no formal procedures for carrying
                                     out such actions and no formal procedures for monitoring
                                     any disciplinary requirements of a discrimination review.
               Also, the Director of FSA's Human Resources Division (HRD) stated that
               disciplinary action cannot be implemented until actual guilt is proven, a process



USDA/OIG/A 60801-2-Hq                                                                         13
              that would typically begin only after CR has issued a finding of discrimination.
              In the absence of implementing and monitoring procedures, the Department has
              no assurance that agencies are taking appropriate disciplinary action against
              discriminating employees.

              A proposed "Policy on Accountability for Discrimination Complaint Issues" was
              drafted to require CR to forward to the Office of Human Resource Management
              a copy of any settlement and attached analysis in which discipline might be
              appropriate. The Office of Human Resource Management will consult with the
              involved agency to determine the appropriate corrective actions to be proposed.
              As of December 1998, this policy remains an informal one.

              Beginning in August 1998, the CR Director assigned a special assistant to track
              settlement agreements through the implementation phase. According to the
              proposed policy, CR officials are to give the Office of Human Resources
              Management all copies of agreements having indications of significant
              wrongdoing by the responsible official(s) or any others that CR determines
              should be reviewed for disciplinary action. The agencies taking the actions
              should be working with the Department's Office of Human Resources
              Management to ensure that the proposed actions are appropriate.

              We reviewed all 17 settlement agreements. In 12 of these, the Department's civil
              rights office issued a decision with a finding of discrimination. For 9 of these
              12, CR stated it would forward the case file to the Department's Human
              Resources Management so it could determine whether any action against FSA
              personnel was warranted in light of the finding. Of the remaining three, two
              inexplicably made no mention of taking disciplinary action and one directed
              FSA to initiate disciplinary action.

              For the remaining five settlement agreements (five members of the same family),
              the Department did not issue a decision with a finding of discrimination.
              However, the former CR Director wrote on July 15, 1997, that for these five a
              high probability of discrimination existed. CR settled with the complainants
              prior to issuing a finding of discrimination in order to avoid the cost of a full
              inquiry, repair the damage to the customer immediately, and eliminate adverse
              publicity. Despite the fact that no formal finding of discrimination was declared,
              CR did require FSA to conduct an impartial misconduct investigation into the
              specifics of the alleged inappropriate comments by the county official. This
              misconduct investigation found the county official had used racial slurs in
              reference to African Americans. That county official retired prior to the
              misconduct inquiry.




USDA/OIG/A 60801-2-Hq                                                                       14
              CR Requested Action in Only One Case

              In 1 of the 12 cases with a finding of discrimination, CR required both the
              Office of Human Resource Management and FSA to inquire about the actions
              of FSA personnel. For this case, CR determined a finding of discrimination was
              warranted and asked FSA to implement the terms of a settlement agreement. In
              CR's transmittal letter to FSA, dated March 11, 1998, CR wrote it would
              forward the case file to Human Resources Management so they could determine
              whether any action against FSA personnel was warranted. The CR Director
              went on to write, "The Agricultural Credit Manager involved in this case was
              found to have discriminated against the [complainants] for the second time, as
              well as to have taken retaliatory action against them. In addition, FSA in its own
              preliminary inquiry on this case found that the Manager treated minorities
              different than other customers, and that some sort of training was required.
              There have been problems with the relationship between the Manager and the
              [complainants] for a number of years, and I am concerned that FSA has taken
              no action to resolve the situation. Accordingly, I strongly recommend that [the
              Administrator] look into this situation to determine what action is warranted."
              However, based on our various interviews, we noted that the case file was never
              forwarded to either Human Resources Management or FSA. As a result, FSA's
              HRD was not aware of any action taken against the Agricultural Credit Manager
              as requested.

              CR Provided Information in Only One Case

              In 1 other of the 12 cases, we found that CR forwarded FSA's HRD enough
              information regarding the alleged discriminating official to initiate a disciplinary
              review. This information had not been forwarded for other cases, despite
              numerous requests.

              In a letter to the CR Director, dated February 13, 1998, FSA requested the final
              decisions on civil rights complaints from CR for 10 complainants. In that
              request, FSA stated it intended to take necessary remedial actions where
              employees had discriminated in program delivery. FSA requested a copy of the
              analysis/findings along with the letter of settlement. CR responded by providing
              FSA with the decision documents for each case. In a letter to the CR Director,
              dated April 1, 1998, FSA’s director of civil rights requested documentation
              which contained the names of agency officials involved in the discrimination,
              since the documents previously provided did not specifically identify employees,
              only positions in the agency. In the April 1, 1998, letter, the requested
              information for complainants increased from 10 to 12. According to the director
              of FSA HRD, CR never sent the requested information.




USDA/OIG/A 60801-2-Hq                                                                         15
              On October 2, 1998, FSA’s director of civil rights again requested detailed
              information about a complainant's case, this time for only one complainant. The
              FSA official stated that while CR's decision document discussed acts deemed
              to be discriminatory, it did not contain the level of specificity needed to defend
              justification for a disciplinary action, if appealed. Therefore, the FSA official
              requested a copy of the investigation file for this one complaint or a letter
              detailing the specific acts of discrimination. FSA received the details it needed.

              In a letter to FSA’s director of civil rights, dated October 19, 1998, CR's
              Director wrote, "We are pleased to see that FSA is beginning to consider
              disciplinary action for those persons found to be responsible for findings of
              discrimination." [Emphasis added.] The CR Director seemed to be unaware that
              FSA had been requesting information about this case from CR for over 6
              months.

              Agencies Adhere to No Standard Policy

              We also determined that an FSA official did not believe he could rely on CR
              findings of discrimination to prove that USDA employees had indeed acted in
              an improper manner. The Director of FSA's HRD stated his agency could not
              take adverse actions without absolute proof of employee wrongdoing in cases
              alleging discrimination. Such proof would require a more indepth investigation
              than those undertaken by CR.

              CR requested an opinion from OGC on the evidentiary standard for adjudicating
              program discrimination complaints. In its April 3, 1998, response, OGC stated
              that the preponderance of evidence used by CR to arrive at a finding of
              discrimination is the proper standard for the agencies to use in adverse actions
              and is consistent with applicable law. However, in subsequent communications,
              OGC attorneys have suggested that the preponderance of evidence standard may
              not apply to all cases and that a higher standard may be required. The attorneys
              concluded that CR may need to provide a mechanism by which the Department
              agencies can identify the evidence required to support the level of disciplinary
              action contemplated.

              We also noted during our review of 84 conciliation agreements that 2 Rural
              Development employees who had been the subject of complaints in 2 of the
              cases were required to take sensitivity training for their actions. Although
              conciliation agreements do not apportion blame to USDA and therefore do not
              normally result in disciplinary actions, there are conciliation cases in which the
              agency deems some form of discipline warranted. We found that CR is unaware
              of these cases, has made no provisions to monitor them, and has provided no




USDA/OIG/A 60801-2-Hq                                                                       16
               guidance to agencies on tracking and reporting them. (For a complete
               discussion of CR's monitoring activities, see Conclusion 2.)

               We found CR had not taken the lead in recommending or assuring that
               discriminating officials are disciplined. From our review of the 17 cases with
               settlement agreements, we found 2 instances where no disciplinary actions were
               mentioned, 9 instances where the Department's staff was responsible for
               disciplinary actions, and 7 instances where the onus was put on the agency (one
               case mentioned that both the Department and FSA were to review the
               allegations). There is also some confusion as to the evidentiary standard needed
               to discipline employees. Although the current CR Director had assured FSA
               that a written explanation of the discriminatory behavior along with copies of
               supporting documents would be provided to them in the future, this assurance
               does not go far enough. We feel this policy needs to be formalized into
               departmental regulations that cover all agencies, not just FSA.

Recommendation 2a

               Direct CR, in consultation with OGC and the Office of Human Resources
               Management, to include a "disciplinary action" section in the departmental
               regulations as a means of formalizing general requirements and procedures
               applicable to employees cited by complainants in program discrimination cases
               who have acted in an improper manner. In the interim, direct CR to immediately
               issue guidelines to the agencies detailing how to proceed with disciplinary action
               based on a finding of discrimination by CR and how to determine when further
               evidence is required to support the level of disciplinary action contemplated.

Recommendation 2b

               Direct CR to forward to the Office of Human Resources Management all prior
               settlement agreement cases in which discipline might be appropriate, and direct
               CR to follow up on the cases to determine if any actions are taken.


Conclusion 4                        In the absence of guidance from CR, two agencies, the
Agencies Should Be                  Forest Service and FSA, either routinely had complaints
                                    settled where a conciliation may have been more efficient,
Encouraged To Conciliate
                                    or included monetary damages for non-ECOA issues in
Agreements
                                    conciliation agreements. Although CR urges agencies to
                                    seek some form of conciliation with the complainant as
               early in the process as possible, not all agencies do this. Rather the agencies
               adhere to their own separate policies of when conciliation should be attempted
               and what it should consist of.



USDA/OIG/A 60801-2-Hq                                                                        17
                             During 1998, the Department reached agreements with 10 FSA complainants;
                             8 were settlement agreements; 2 were conciliation agreements. Even though
                             FSA personnel are required to seek conciliation, the trend has been towards
                             settling FSA complaints after an investigation has been completed. This is
                             costly and time-consuming for both the Government and the complainant. All
                             17 settlement agreements in the Department resulted from complaints made
                             against FSA, and the cost of compensatory damages associated with these
                             agreements totaled nearly $2.7 million. (See exhibit A.) Also CR invested
                             considerable time and resources in investigating and adjudicating cases that, in
                             some instances, may have been settled more efficiently through conciliation.
                             The complainant may also be denied immediate programmatic relief, which if
                             granted, may have made a difference in the success of the complainant's farming
                             operation.5

                             By contrast, Rural Development tries to conciliate complaints before they get to
                             the investigation stage. Rural Development uses its program authorities to
                             satisfy the complainant, resulting in a more timely and cost-effective resolution
                             to the complainant and the Government. For instance, if during the agency fact-
                             finding phase the State Civil Rights Coordinator determines that the
                             complainant's application for a loan or loan servicing was not handled properly,
                             he or she tries to resolve the complaint by having the application reevaluated.
                             Conciliations of this type make the aggrieved party "whole" while being more
                             cost effective to the Government.

                             We also noted that while the Forest Service enters into conciliation agreements
                             early in the complaint process, 2 of its agreements with complainants have
                             included monetary damages. The OGC believes this to be an inappropriate term
                             of the agreements based on a Department of Justice opinion. See Conclusion 5
                             for a full discussion of this issue.

                             We concluded that CR should formalize its conciliation policy to encourage
                             conciliation with complainants in program discrimination cases early in the
                             complaints process.




    5
     We did not conduct a complete analysis of these complainants’ farming operations; however, complainants have stated that if benefits had
come sooner, it may have saved their farming operations.




USDA/OIG/A 60801-2-Hq                                                                                                                           18
Recommendation 3

               Direct CR to formalize its conciliation policy in the Department regulations to
               encourage conciliation with complainants in program discrimination cases early
               in the complaints process.




USDA/OIG/A 60801-2-Hq                                                                      19
Chapter 3:      Agreement on Terms in the Settlement Agreement

Agreement Terms Should Be Agreed To Within USDA Prior To
Negotiations With the Claimants

Conclusion 5                         Although the Office of the General Counsel (OGC) has
                                     been involved in the process of finalizing settlement
                                     agreements, attorneys at the OGC, Civil Rights Division,
               believe that CR does not allow them sufficient time to review the source
               materials used by CR to formulate the terms that will be proposed during the
               settlement negotiations. The attorneys stated that they and the OGC program
               division, along with cognizant program officials, should be given sufficient time
               to analyze all components of the agreements to ensure their conformance with
               applicable statutes, Departmental regulations, and program regulations. They
               agreed that the review should not deter cases from being completed within the
               180-day limit.

               OGC is divided into several divisions which cover specific mission areas of the
               Department. OGC’s Associate General Counsel for Rural Development has
               responsibility for programmatic legal matters of Rural Development and loan
               programs for FSA. OGC’s Associate General Counsel for Civil Rights is
               responsible for all program-related civil rights legal matters.

               OGC Civil Rights Division’s role in the complaints resolution process is to
               determine the legal sufficiency of the decisions issued by CR and the settlements
               arrived at. The CR Director has emphasized that the Assistant Secretary for
               Administration delegated responsibility to CR for negotiating agreements and
               that OGC has only an advisory role. However, OGC disagrees with this opinion.
               Currently, OGC’s Civil Rights Division reviews proposed decisions and
               participates in negotiation of settlements if so requested by CR.

               Attorneys for OGC’s Associate General Counsel for Rural Development
               (program attorneys) have had no participation in the settlement negotiation
               process. These attorneys have legal expertise in particular USDA programs;
               however, this staff reviews agreements only if requested by cognizant program
               officials. Because CR and not the agency negotiates settlement agreements,
               agency program officials and OGC program attorneys become aware of the
               agreements' terms in many cases only after CR forwards them for
               implementation.

               We found that some agreements contained unauthorized terms or were
               inappropriately worded, leaving the terms open to interpretation by both the



USDA/OIG/A 60801-2-Hq                                                                        20
              agency and the complainant. The agreements with unauthorized terms
              inappropriately waived provisions of a statute, or granted monetary damages
              when the agency was apparently limited to providing only program relief.

              Agreements That Waive Provisions of a Statute

              A typical term in these settlement agreements calls for the release of all USDA
              debt. However, the term also stipulates that "this release will not trigger the
              statutory provisions found at Section 648 of the Federal Agriculture
              Improvement and Reform Act [FAIR] of 1996 that preclude an individual who
              has received debt forgiveness from obtaining further farm loans from USDA or
              from obtaining future debt forgiveness." The Associate General Counsel for
              Rural Development stated, "The situation is, of course, that section 648 of FAIR
              is going to apply if it is applicable and it is not going to apply if it is not. Placing
              this clause in the agreement only causes all of these agreements to be null and
              void, even though substantially completed, if it is later determined that section
              648 does apply."

              The Department’s General Counsel informed the Secretary in a September 17,
              1998, memo that debt forgiveness as a result of a settlement agreement would
              not trigger provisions of FAIR; however, debt forgiveness granted prior to the
              discriminatory act would. One complainant, with these terms in his agreement,
              had received a debt forgiveness prior to the period of discrimination. This prior
              debt forgiveness would trigger section 648 of the FAIR Act making the
              complainant ineligible for future loans. According to OGC’s Associate General
              Counsel for Rural Development, this material breach would make the complete
              settlement agreement "null and void."

              We believe the terms in these agreements might be clarified if OGC program
              attorneys and agency program officials were consulted during the negotiation
              phase. These individuals would have the statutory expertise and the personal
              knowledge of the program history of each of these complainants, which may be
              necessary for full implementation of the agreements. The Associate General
              Counsel for Legislation, Litigation, and General Law in a June 27, 1997, memo
              to FSA stated, “the ASA [Assistant Secretary for Administration] and the
              Director [CR] must still follow the relevant statutes and regulations in
              determining corrective action, such as ensuring that an individual is qualified for
              a loan or other benefit. It is for this reason that it is crucial that the ASA and the
              Director give the agency a full opportunity to air its views on a given case before
              issuing a final determination.”




USDA/OIG/A 60801-2-Hq                                                                             21
              Agreements May Have Inappropriately Contained Monetary Damages

              Conciliatory agreements do not acknowledge blame on the part of the
              Department and therefore are typically limited to program relief. However, we
              found that the Forest Service paid $6,200 in monetary awards for three
              conciliation agreements through the use of cash funds from small purchase
              authority. Two of the agreements were for $2,500 each and the third was for
              $1,200. A decision relating to one of the agreements, issued by the Forest
              Service civil rights director, stated, “We recommend the [complainant] be
              compensated for their hardship in the maximum amount allowable under Small
              Purchasing Authority, $2,500.” The third conciliation agreement, in which
              $1,200 was paid, indicated it was a reimbursement of expenses but did not
              indicate what type of expenses were incurred by the complainant. As part of our
              review, we presented these agreements to OGC civil rights attorneys who also
              questioned the permissiveness of these awards.

              The CR Director stated that it was permissible to compensate complainants
              based on the “nuisance value” of the complaint, and upon provisions of the
              Alternative Dispute Resolution Act. She also stated that DOJ has been known
              to pay under Title VI of the Civil Rights Act of 1964.

              We question the permissiveness of the payments in the first two Forest Service
              conciliation agreements based on an OGC informational memorandum to the
              Secretary, dated October 16, 1998. In general, OGC concluded, based upon DOJ
              opinions, that the Department cannot make compensatory damage awards, even
              when using an alternative dispute resolution process, unless the complaint
              involves a credit case as recognized by the ECOA. Because the Forest Service
              does not administer any direct loan programs, none of its operations fall under
              the provisions of the ECOA.

              In regard to the third Forest Service conciliation agreement, OGC also concluded
              that attorneys’ fees and costs may be awarded pursuant to provisions in the
              Equal Access to Justice Act; however, this Act is specific on what types of costs
              may be reimbursed and under what circumstances reimbursement can be
              awarded. The third Forest Service conciliation agreement did not provide us
              with sufficient information to determine whether the Equal Access to Justice Act
              applied.

              Some Agreement Terms Were Misleading

              In six of the conciliation or settlement agreements we reviewed, one or more
              terms were unreasonable. The wording of the terms was either misleading or too




USDA/OIG/A 60801-2-Hq                                                                       22
                           vague, allowing for broad interpretation. We concluded that some wording
                           could leave the Department open to further litigation.

                           For five of the agreements, the term read, “[the complainant] will be given
                           priority consideration for the purchase, lease, or other acquisition of any
                           inventory property from USDA.” [Emphasis added.] The term, as written, does
                           not give specific boundaries for this inventory property and could be interpreted
                           to mean anywhere in the United States.

                           The last agreement, also dealing with inventory property, did limit the selection
                           of property to property that was in “close proximity” to the complainant, but it
                           did not limit the priority consideration to just one loan or for a limited period of
                           time. This term could be literally interpreted to mean priority consideration for
                           all future inventory property.

                           In this case, the complainant is a white male who filed a complaint against FSA
                           based on its denial of a loan. The complainant alleged FSA denied the loan
                           based on his disability. CR investigated the charge and determined FSA
                           improperly considered the complainant's disability when determining loan
                           eligibility. In order to settle, CR offered the complainant program relief
                           including priority consideration for inventory property (the complainant was not
                           eligible for compensatory damages since ECOA does not include disability as
                           a protected base).

                           The agreement, which was not reviewed by OGC program attorneys, was
                           finalized on September 23, 1997. As of the date of our review, FSA had not
                           contacted the complainant regarding the availability of inventory property. For
                           other agreements with similar terms, FSA had notified complainants regardless
                           of whether inventory property was or was not available. FSA had not provided
                           this complainant with the same notification.

                           A senior loan officer with FSA stated that, by statute, priority consideration for
                           inventory property can only be given to Socially Disadvantaged Applicant's
                           (SDA) and by definition, a white male cannot be an SDA. According to agency
                           regulations,6 the agency has identified socially disadvantaged groups as women,
                           Blacks, American Indians, Alaskan Natives, Hispanics, Asians, and Pacific
                           Islanders. Since the complainant did not fall under any SDA category, FSA did
                           not inform him of whether or not inventory property was available. Even though
                           disabled Americans are not included in this definition, we feel FSA should have




  6
      Instruction 1943-A Section 1943.4, dated November 3, 1993.




USDA/OIG/A 60801-2-Hq                                                                                      23
               obtained an OGC opinion as to whether this complainant could be considered
               for priority consideration for inventory property.

               We concluded that the finalization of settlement and possibly some conciliation
               agreements should include greater representation by Department program and
               legal staffs. All interested parties within the Department should determine
               before negotiations begin with the complainant what terms can be agreed to and
               what terms may be inconsistent with laws and regulations. Every effort should
               be made to ensure that these procedures do not inhibit cases from moving
               through the process within 180 days.


Recommendation 4a

               Require the CR Director to instruct FSA to obtain an OGC opinion on whether
               the one complainant is eligible for priority consideration for inventory property
               under the definition of a Socially Disadvantaged Applicant; and if so,
               immediately notify the one complainant of the availability or unavailability of
               inventory property in accordance with his settlement agreement.

Recommendation 4b

               Require the CR Director to assemble and chair a team of OGC civil rights
               attorneys and cognizant agency program officials that will meet prior to each
               agreement negotiation to: (a) perform an expeditious review of the economic
               analyses and other information compiled as support for the terms proposed in the
               settlement agreement and (b) analyze all components of the agreement prior to
               presentation to the complainant to assure they conform with applicable statutes,
               Departmental regulations, and program regulations. Every effort should be
               made to assure that these procedures do not inhibit cases from moving through
               the process within 180 days.




USDA/OIG/A 60801-2-Hq                                                                        24
General Comments

No Evidence That                     We found no evidence that CR investigators were being
Investigators Have Been              coerced or intimidated to reverse findings of
Coerced                              discrimination, or that anyone had asked them to reduce
                                     proposed settlement awards.            Program complaint
                                     investigations are solely CR's responsibility, and there is no
                                     indication that OGC or DOJ interfered in the investigation
              process, so as to change the results of the investigations. OGC's involvement in
              the complaints process does not occur until after cases are investigated. OGC
              personnel generally have little or no contact with either CR investigators or
              contract investigators while an investigation is in process. DOJ's involvement
              occurs later still in the process and only includes reviews of settlement
              agreements where litigation was involved. Insofar as CR adjudicators are
              responsible for arriving at findings of discrimination, and not investigators,
              investigators would not be in a position to reverse such a finding or to modify,
              reduce, or eliminate any proposed award. We did not find any evidence that any
              investigator had been asked to do so. However, there have been cases during
              OGC’s legal sufficiency reviews where OGC has requested CR to revise or
              change some of the language in a written decision, because OGC attorneys
              believed that it was incorrect as written or not in accordance with a law, or they
              had questions as to how much weight certain situations should have in the
              making of the decision. These situations appear to be matters of judgement or
              clarification, and we have no basis to believe that they were intended to be
              coercive or intimidating in nature.


Department of Justice              DOJ has negotiated and signed four settlement agreements
Involvement in Settlements         during the scope of our review. These four settlement
Seems Reasonable                   agreements resulted from lawsuits filed against the
                                   Secretary, and as such, they fell under DOJ’s jurisdiction.
                                   CR has copies of these settlement agreements, and FSA is
              tracking the implementation of the terms. All four had provisions for
              compensatory damage awards, and three included provisions for program relief.
              The compensatory damage awards totaled $817,000, and the debt forgiveness
              portion of the program relief totaled $789,028. (See exhibit C.)

              DOJ has also reviewed six USDA negotiated settlement agreements since
              January 1, 1994. (See exhibit B.) (Because the scope of our audit included all
              settlements arrived at since January 1, 1994, we used this broader scope period
              to consider the issue of DOJ involvement, rather than the more limited scope
              period proposed by the Congressional Black Caucus in their August 31, 1998,
              letter.) For three of the six settlements, DOJ voided the awards. In two cases,


USDA/OIG/A 60801-2-Hq                                                                          25
                           the Statute of Limitations barred compensatory damages at the time of
                           settlement.7 In one of these cases, the award was voided; in the other it was
                           renegotiated. In the third case, the complainant had failed to file his complaint
                           within 2 years of the discriminatory act, as specified by the ECOA. In this case,
                           the award was also voided.

                           The award that DOJ voided because the complaint was filed late amounted to
                           $312,000. DOJ found that this complaint concerned an application for
                           preservation loan servicing and was filed after the 2-year deadline set by
                           regulations. This nullified USDA's agreement to pay the complainant the
                           compensatory damages, plus reasonable attorney's fees.

                           The award that DOJ denied because the case fell outside the Statute of
                           Limitations amounted to $490,000. DOJ was required by court order to review
                           this case because the complainant was a putative member of a class action
                           lawsuit against the Department. Among the problems DOJ noted were: (a) The
                           complainant's ECOA claim fell outside the Statute of Limitations at the time of
                           the administrative settlement, and (b) the economic analysis and other materials
                           provided little or no support for the income loss and pain and suffering portions
                           of the total claim. DOJ determined on the strength of USDA's case and the
                           likelihood that the Government would prevail in court that an appropriate
                           compromise should provide the complainant with not more than $10,000 in
                           cash, nominal debt relief of up to $25,000 and a nominal sum (up to $5,000) for
                           attorney's fees and costs.

                           In the other agreement that fell outside the Statute of Limitations, the settlement
                           agreement negotiated by CR covered two complaints filed in 1993 and two
                           complaints filed in 1994, and included $542,395 in compensatory damages.
                           DOJ determined that the 1993 complaints fell outside the Statute of Limitations
                           and voided this part of the agreement. FSA renegotiated the agreement based
                           on this limitation and subsequently awarded the complainant $474,725.

                           Settlement amounts for the six cases that DOJ reviewed between January 1,
                           1994, and the present ranged from $114,000 to $490,000 and averaged
                           $282,954. During the period December 31, 1996, to the present, there were 13
                           cases with settlement agreements that DOJ did not review. The damage amounts
                           for these 13 cases ranged from $225,000 to $495,000 and averaged $135,308.
                           However, 8 of these 13 did not receive compensatory damages. The average of
                           the five which received compensatory damages was $351,800.




  7
   Subsequent congressional action has waived the statute of limitations in these cases. Both cases are now considered active.




USDA/OIG/A 60801-2-Hq                                                                                                            26
                                       Complainants who entered into settlement agreements
   Tax Forms Are Issued in
                                       with the Department and received monetary awards
   Conformance With Internal
                                       (compensatory damages, debt forgiveness, etc.) have
   Revenue Service Rules               also received a Form 1099, or report of income.
                                       Internal Revenue Service (IRS) rules stipulate that all
              recipients of Government funds must receive a Form 1099, including those who
              received settlement agreements and debt relief.




USDA/OIG/A 60801-2-Hq                                                                      27
EXHIBIT A - Complaints with Settlement Agreements




USDA/OIG/A 60801-2-Hq                               28
EXHIBIT B - Results of Cases Sent to DOJ for Review



                                            Number of Days at
                  Complainant              Department of Justice              Approved             Voided

                          J                             26                          x

                         K                              28                          x

                         N                             57b                                             xc

                         O                               7                          x

                          R                            178a                                            xd

                          S                             26                                             xe

                 Average Days                          29


a/    We did not include the 178 days in the average since part of the delay can be attributed to USDA’s OGC. During DOJ’s review, it
      had requested additional information from OGC. Over a month later, DOJ made a second request for the same information.

b/    We were unable to obtain documentation showing the date the case went to DOJ for review. We estimated this date based on an
      average of the number of days USDA took to forward the other five cases to DOJ.

c/    DOJ voided the inclusion of the 1993 complaints and required USDA to renegotiate the settlement based only on the 1994
      complaints.

d/    DOJ determined the case fell outside the Statute of Limitations.

e/    DOJ determined the complainant had not filed his complaint within 2 years of the discriminatory act.




USDA/OIG/A 60801-2-Hq                                                                                                                   29
EXHIBIT C - DOJ-Negotiated Settlement Agreements




                           DOJ-Negotiated Settlement Agreementsa
                   Complainant                Compensatory Award                      Program Relief

                DOJ1                                         $ 150,000                                    N/A
                DOJ2                                           220,000                            $ 432,799
                DOJ3                                           129,000                                 30,255
                DOJ4                                           318,000                               325,974
                Totals                                       $ 817,000                            $ 789,028


a/    We did not verify the payment of compensatory awards since they were paid from DOJ’s Judgement Fund. However, we did verify
      with FSA program officials and a review of payment documents that the program relief (debt forgiveness) had been implemented.




USDA/OIG/A 60801-2-Hq                                                                                                                 30
